No. 20-1522
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA,
PETITIONER,
- VS. MALIK NASIR,
RESPONDENT.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the RESPONSE TO PETITION FOR WRIT OF CERTIORARI, via email and first-class
mail, postage prepaid, this 20th day of July, 2021.
Elizabeth B. Prelogar, Acting Solicitor General, Counsel of Record
Nicholas L. McQuaid, Acting Assistant Attorney General
Eric J. Feigin, Deputy Solicitor General
Benjamin W. Snyder, Assistant to the Solicitor General
John M. Pellettieri, Attorney
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
As required by Supreme Court Rule 33.1(h), I certify that the document contains 141
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct.
Executed on July 20, 2021.
/s/ Keith M. Donoghue
KEITH M. DONOGHUE
Assistant Federal Defender
Counsel of Record
BRETT G. SWEITZER
Assistant Federal Defender
Chief of Appeals
LEIGH M. SKIPPER
Chief Federal Defender

Federal Community Defender Office
for the Eastern District of Pennsylvania
Suite 540 West – The Curtis
601 Walnut Street
Philadelphia, PA 19106
(215) 928-1100
Counsel for Respondent

